No. _____________
IN THE
SUPREME COURT OF THE UNITED STATES
JESSIE HARRIS
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE FIFTH CIRCUIT
PROOF OF SERVICE
I, A. Clay Graham, do certify that on this date,November 25, 2020,
pursuant to Supreme Court Rules 29.3 and 29.4, I have served the attached
Motion for Leave to Proceed in Forma Pauperis, Petition for a Writ of
Certiorari and Appendix on each party to the above proceeding, or that party's
counsel, and on every other person required to be served. I have served the
Supreme Court of the United States via Federal Express, overnight. The
Solicitor General, Assistant United States Attorney Leigha Amy Simonton, and
the petitioner were each served by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and
with first-class postage prepaid.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Leigha Amy Simonton
(leigha.simonton@usdoj.gov)
Assistant U.S. Attorney

U.S. Attorney's Office
Northern District of Texas
Suite 300
1100 Commerce Street
Dallas, TX 75242-1699
214-659-8684
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave.,N. W.
Washington, DC 20530-0001
/s/ A. Clay Graham
A. Clay Graham
Counsel of Record for Petitioner

